No.

1o - l

In the
Supreme Court of the United States
Jorel Shophar, Sasuah Shophar,
R.S., Z.S., FHVonersf|
E.S.
B %P B §0
l

. ■

P M ,.t vH

V.

United States of America, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for
the Tenth Circuit

FILED
FEB 1 9 2021

PETITION FOR WRIT OF CERTIORARI

supremeFcourtLusK

Jorel Shophar Pro Se
1900 E. Golf Rd. Ste. 950
Schaumburg, Illinois 60173
Phone: (773) 563 9851
Shophar@UnitedStatesChurch.us

Questions Presented for Review
1. Is the 1974 Child Welfare Act of Child
Protective Services violating U.S. Citizens
Constitutional Rights
of the
Fourth
Amendment, Fourteenth Amendment Due
Process Clause, for Funding States that
“illegally seize” children from parents based on
allegations, or frivolous claims, or false reports
by case workers, without evidence, and without
trial before seizures?
2. Does the Eleventh Amendment Immunity
for judges in County Courts, exemplify judges
from criminal charges of state abuse of
children, and lawsuits in Federal Courts for
these abuses and violations and deprivations of
Constitutional Rights?
3. Is it a violation of First Amendment Rights to
prohibit Parents or siblings from litigating Pro
Se for children in the Court of Law?
4. Should the Federal Courts be a remedy to
Illegal Seizures of children when a State
violates State and Federal Laws pertaining to
the Fourth Amendment, concerning Seizures
of children?
5. Does an Opinion of a Federal Judge triumph
over Constitutional Law?

i

List of Parties
Petitioners
Jorel Shophar, biological father of children J.S. and
B.S., illegally made WARDS OF THE STATE OF
KANSAS.
Sasuah Shophar, biological mother of Petitioner’s 3
other children, with a legal marriage to Petitioner in
the State of Illinois in 2000
Petitioners below were named in the caption on the
initial suit filed in the State of Illinois, however, were
not named by the Kansas Federal Court order.
R.S. The eldest son of the Petitioners and blood
related brother of J.S and B.S
Z.S. Daughter of the Petitioners and blood related
sister of J.S and B.S.
E.S. Youngest son of Petitioners and blood related
younger brother of J.S. and B.S.
Respondents
United States of America
Legislative, Judicial and Executive Government
Kathleen L. Sloan - County Judge
Johnson County, Kansas Court, Division 10
Child in Need of Care Cases (“CINC”)
n

Erica Miller - Assistant District Attorney
Johnson County, Kansas Court
Child in Need of Care Cases (“CINC”)
Kansas Department of Children and Families
Child Welfare Agency in the State of Kansas
KVC Health - Child welfare agency contracted by
Kansas Department of Children and Families
Stacey Bray, case worker
Kansas Department of Children and Families
Saarah Ahmad, case worker
KVC Health
Kimberly Smith, caseworker
KVC Health
Richard Klein - Guardian Ad Litem; J.S. and B.S.
Legal Clinic, LLC appointed by Judge Sloan
Marc Berry — Appointed Attorney for Krissy Gorski
Legal Clinic, LLC appointed by Judge Sloan
Paul LaFleur - 29 yrs estranged brother of Shophar
Teena Wilkie - affiliate of Krissy Gorski
Appointed by Court, foster guardian for children
Nathan Wilkie - affiliate of Krissy Gorski
Appointed by Court, foster guardian for children
in

Table of Contents
Questions Presented for Review........................
List of Parties........................................................
Table of Appendices..................... .......................
Table of Authorities.............................................
Petition for a Writ of Certiorari.........................
Opinions Below.....................................................
Statement of Jurisdiction...................................
Constitutional and Statutory Provisions........
I. Statement of the Case.....................................
II. Factual Background.......................................
i. Summary of Background (2015 - 2016)..,
ii. Summary of Background (2017 - 2020)..
1. Hearing in Kansas Court.....................
III. Relevant Proceedings Below......................
IV. Additional Facts.............................................
V. Arguments ......................................................
i. Violations of Biblical Law...........................
ii. Violations of Constitutional Law.............
iii. Supreme Court and Federal Statutes...
iv. Conspiracy to Cover-up child sex abuse
VI. Reasons for Granting the Petition.............
National Crisis of States' Child Abuse.......
VII. Statement of Children.................................
VIII. Conclusion..................................................

iv

l

n
vi
IX

1
1
1
1
2
4
4
6
12
18
19
20
21
21
24
33
38
38
43
44

Table of Appendices
Appendix 1 - Memorandum of Judgment and Order
of the United States District Court for the District of
Kansas, Case 5:19-cv-04052-HLT, Judgment and
Order December 9, 2019
la

Appendix 2 - Memorandum of Judgment and Order
of the United States Court of Appeals for the Tenth
U.S. Circuit Court of Appeal Colroado - Case: 19-3281
December 2, 2020
15a

Appendix 3 - Order of the United States District
Court Case: l:2019-cv-03512-CRN from the U.S.
Northern District Court of Illinois to transfer the case
to the U.S. District Court of Kansas "FORTHWITH"
on June 27, 2019
27a

Appendix 4: April 3, 2019 order from Johnson
County Court, Judge Sloan findings: Based on no
claim against the father, Court agreed to issue a
Regulation 7 ICPC Expedited placement of the
children to Father’s home
29a

v

Appendix 5: Order ICPC Regulation 7 Expedited
Placement of Children to Petitioner’s home in the
State of Illinois on September 19, 2019. Petitioner
was approved by the State of Illinois. Respondents
did not fulfill Order
33a

Appendix 6: Forensic Mental Health Evaluation
Report result for Jorel Shophar which was ordered by
Court and Miller
37a

Report stated,
would be
and
totally safe and secure in the care of Jorel and Angel
Shophar. Furthermore, there was nothing in Jorel’s
psychological profile that would require that he should
enroll in an anger management program, a batteries
intervention course or parenting classes
39a

Appendix 7: Forensic Mental Health Addendum for
Jorel Shophar requested by Court, again: Examiner
maintained his position stating: “Jorel Shophar is a
well-adjusted adult who has a long history of being an
excellent parent to the three children that he and
Angel have raised since their birth. ”.
42a

vi

Appendix 8: All Seven of the Petitioner’s 3 hour
visits with his children in 2017. Documented by
Shophar at his request of a Court therapist and
Parenting Instructor; Janet Mitchell
55a
1. https://www.facebook.com/jorelrshophar/posts/

1482300731789099
2. http s ://ww w .facebook.com/j orelrshophar/posts/
1489615544390951
3. https://www.facebook.com/jorelrshophar/posts/

1498585083493997
4. http s ://www .facebook.com/j orelrshophar/posts/
1502718319747340
5. https://www.facebook.com/jorelrshophar/posts/

1524965050856000
6. https://www.facebook.com/jorelrshophar/posts/

1525056220846883
7. https://www.facebook.com/jorelrshophar/posts/

1527144833971355
Appendix 9: The Petitioner documented events
through audio and video to protect himself and his
other family from the beginning. He classified each
video evidence as Part 1, Part 2, and Part 3. This
evidence has been used by State and Federal Courts
concerning this matter
8,9,35 and 56a
Part 1: https://www.vimeo.com/279097759
Part 2: https://www.vimeo.com/278003779
Part 3: https://www.vimeo.com/279064934
Vll

Appendix 10: Krissy Gorski has practiced
prostitution in the State of Missouri and State of
Kansas, and State of Michigan, even to this day in the
dangerous times of COVID-19, using the name
KAYLA KRISSY KAYCE, publically soliciting
herself for prostitution with strangers, which resulted
in children being sexually abused in her home. All
Courts in State and Federal are aware of the online
attachments, which were used in State and Federal
Courts as evidence
8,23 and 56a
https://sumosear.ch/images/phone/913-265-1764/5
http s ://eccie. net/showthre ad .p hp ?p=1061575590
Appendix 11. This is evidence that the Petitioner's
home was a place of events for the entire
57a
neighborhood
https://www.vimeo.com/279097759 Time 2:57 — 4:04
Appendix 12 online evidence of audio recording of
Krissy Gorski, who contrive falsehood in the Court of
Law, in State and Federal Courts in Michigan,
Kansas and Illinois, for over 5 54 years, even to this
day, and never being penalized for perjury
21,57a
https://www.vimeo.com/279097759 Time 9:05 - 9:28
https://www.vimeo.com/279097759 Time 9:57-10:09
https://www.vimeo.com/279097759 Timel2:30 -13:18
https://www.vimeo.com/279097759 Timel3:49 -15:21
vm

Table of Authorities
Biblical Law
Romans 2:11
For there is no respect of persons with God

20

Psalm 127:3
Lo, children are an heritage of the LORD: and the
fruit of the womb is His reward
38
Proverbs 31:8-9
“Open your mouth for the mute, for the rights of all
who are destitute. Open your mouth, judge
righteously, defend the rights of the poor and
needy.”
41
Luke 17:2
“It were better for him that a millstone were hanged
about his neck, and he cast into the sea, than that he
should offend one of these little ones.”
41
Matthew 19:14
But Jesus said, Suffer little children, and forbid them
not, to come unto Me: for of such is the kingdom of
heaven
42
1 Samuel 24:12
The LORD judge between me and thee, and the
LORD avenge me of thee: but mine hand shall not be
upon thee
44
IX

Table of Authorities
Pages

Cases
Smith v. Organization of Foster Families

6

In Stanley v. Illinois,
405 U.S. 645, 92 S. Ct. 1208 (1972)

24

Truax v. Corrigan (1912)

25

Bd. of Regents of St. Colleges v. Roth,
408 U.S. 564, 570, 92 S.Ct. 2701, 2705 (1972)

27

Fuentes v. Shevin,
407 U.S. 67, 80, 92 S.Ct. 1983, 1994 (1972)

27

Goss v. State of Illinois,
312 F 2d 257; (1963).....

27,28

In re Paul W., 151 Cal. App. 4th 37, 53

29

In re Barr, 39 Cal. 2d 25, 27 (1952))

29

Gass, Jenkins, & Dunn, 2007;

31

Wojciak, McWey, & Helfrich, 2013

31

Hegar & Rosethal, 2011

32

Washington v. Glucksburg
521 U.S. 702 (1997).............

36

x

Constitutional Provisions
First Amendment
Fourth Amendment
Fourteenth Amendment
Federal Statutes
USA § 1738A(a)
1974 Child Welfare Act (CAPTA)
Victims of Abuse Act 1990
Social Security Act
Fostering Connection Act
ICPC (Interstate Compact Placement of children)
Regulation 7
42 U.S. Code § 1983 - Deprivation
28 U.S. Code § 2241 - Power to grant writ
28 U.S. Code § 1331 - Federal Question
28 U.S. Code § 4101 - Defamation
18
18
18
18
18
18
18

U.S.C. Code § 2258 - Failure to Report
U.S.C. Code § 1591 - Exploitation
U.S.C. Code § 1519 - Cover-up
U.S.C. Code § 1201(a) - Kidnapping
U.S. Code § 2261A (2)(b) - Harassment
U.S.C. Section 241 - criminal deprivation
U.S.C. Code § Section 242 - criminal deprivation

xi

Petition for a Writ of Certiorari
I, Jorel Shophar, respectfully petition for a Writ of
Certiorari to review the judgment of the United
States Court of Appeals for the Tenth Circuit.
Opinions Below
The panel’s opinion of the U.S. Court of Appeals of
the Tenth Circuit affirmed the District Court’s
dismissal for lack of subject matter.
Statement of Jurisdiction
The order and judgment of the U.S. Court was entered
on December 2, 2020.
Constitutional and Statutory Provisions
First Amendment Congress shall make no law
respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
government for a redress of grievances.
Fourth Amendment ~ The right of the people to be
secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and
the persons or things to be seized.
1

Fourteenth Amendment ~ All persons born or
naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States
and of the state wherein they reside. No state shall
make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
I. Statement of Case
On March 28, 2018 Krissy Gorski the mother of
J. S. and B.S. was arrested for DUI on METH and
HEROIN in the State of Kansas. The State of Kansas
illegally “seized” the children based on drug abuse
by the mother. The father, the Petitioner, Jorel
Shophar is not the offending parent, but was denied
any knowledge of his children during Gorski’s arrest.
Krissy Gorski was arrested on March 28, 2018, for
crashing her vehicle at an Elementary School, with
the children in the vehicle. Gorski was charged with
DUI [driving under influence] of METH and HEROIN
in the State of Kansas. The father was searching in
the State of Michigan, for his children at the time
of the mother’s arrest. The mother had previously
absconded the children and took them illegally across
State lines, through Kansas, Missouri, Illinois,
Indiana, to Michigan, without informing the father,
2

or the Kansas Court; violating a direct Kansas Order
“Not to leave the State of Kansas.” Neither the Olathe
Police Department nor the State of Kansas; case
workers, contacted the father.
Krissy Gorski was allowed to sober up by the
Olathe Police Department. The children were then
returned to her by the Olathe Police the same day,
without contacting the father. Krissy Gorski
continued to drive under the influence of drugs, and
was observed intoxicated, being witnessed by a
respite guardian. On April 17, 2018, 21 days later,
Judge Sloan, of the State of Kansas; “seized” the
children, making them WARDS OF THE STATE OF
KANSAS, without allowing the father the right to the
hearing in Johnson County, Kansas.
Kansas Department of Children and Families
violated the law, for deliberately not contacting the
father, who was currently litigating with state actors
in Federal Court, after filing a Habeas Corpus
pursuant to 28 U.S. Code § 2241, for state actors to
produce the children. The father was denied
Constitutional right to his children, before the illegal
seizure. Kansas is holding the children illegally for
nearly 3 years to this present time, violating the
children’s Constitutional rights and the father’s
Constitutional rights of the First Amendment, Fourth
Amendment, and Fourteenth Amendment.
3

II. Factual Background

i.

Shophar v. State of Kansas
(2015 and 2016) Summary background
U.S. Supreme Court Case: 19-254
The Case of Shophar v Kansas begin in
September of 2015 when the State of Kansas, state
actors, “illegally seized” Shophar’s children, J.S.
and B.S., the first time. The Petitioner was denied
rights to the Court of Johnson County, or the right to
make a claim to protect his children. On the contrary
the mother of the children was abusing opioids and
practicing prostitution, and criminal activity, but
was awarded the children, by state actors who
violated Federal and State laws to protect children.
Subsequently by and through the Petitioner’s
Attorney, the Petitioner filed a complaint in the State
Courts, and Appeals in the Appellate Court, but was
denied the right to an Appeal by the lower state court
judge, Kathleen Sloan. After being denied the right
to an Appeal for the original “illegal seizure” of his
children, and being denied rights to the Court,
including hearings, meetings, sessions, and being
denied any knowledge of his children, without any
merit of law, the Petitioner filed a claim of
Deprivation of Rights case, in Federal Court in the
State of Kansas. Cases;
U.S. District Kansas Case: 5:15-cv-4961-DDC-KGS
U.S. District Kansas Case: 5:16-cv-4043-DDC-KGS
4

The original claims were dismissed in the U.S.
Courts of Kansas; Appealed in the 10th Circuit Court
of Appeals, then filed as a Writ of Certiorari in the
U.S. Supreme Court Case: 19:254.
The Petitioner’s First Amendment rights to
exercise in the state courts, for Due Process of the
matter, were denied continually in State Courts.
After being denied 6 times, in Kansas Appellate
Court, including reviews by Kansas Supreme Court,
Shophar then filed a Mandamus on August 18, 2017,
Case: 118143, in Kansas Supreme Court, but was
denied pleadings and dismissed. State actors would
continue denying the Petitioner any rights to the
Court, or knowledge of his children J.S. and B.S., for
nearly 3 more years. The Petitioner continued to
exercise in state courts, exhausting all remedies to
resolve controversial matters, being denied every
remedy allotted in the Courts. Shophar then filed
another Mandamus on October 19, 2020 in Kansas
Supreme Court Case: 123314, to exercise his rights
according to state law, after his children were
illegally seized by the State of Kansas.
Shophar attempted to use every remedy possibly
available in the Court of Law. The Federal Courts
submitted Opinions stating “lack of jurisdiction” the
State Courts would submit no adjudication of the
matter, simply closing the cases without any rights of
5

Due Process. The Petitioner has been denied by both
the State Courts and the Federal Courts, while
being denied his Fundamental Rights to his children,
as they were placed in extreme dangerous situations
by state actors, with wanton and willing conduct,
placing children with a 15 count felon, as she
continued a life in criminal activity, prostitution;
causing the children to be sex trafficked for meth and
heroin. The Petitioner has exercised in the Courts for
over 5 years, being denied continually.
The
Petitioner then filed a second Writ of Certiorari based
on the 6th denials by the Kansas Appellate Court
and the Kansas Supreme Court, which was filed as
a Writ of Certiorari; and is currently Docketed in the
United States Supreme Court Case: 20-1068.
n.

Shophar v. United States of America
(2017 and 2020) Summary background

The United States Supreme Court ruled in a case;
Smith v. Organization of Foster Families, the
Supreme Court attempted to define the scope of the
family relationships protected by the Due Process
Clause. The Court enumerated three guidelines to
define the breadth of the family protected by the
United States Supreme Court.

6

U.S. Supreme Court:
"the usual understanding of family’ implies biological
relationships....Id. at 843 " Second, familial relationships
usually involve "emotional attachments that derive from
the intimacy of daily association.... Id. at 844." Third, the
"natural family" has "its origins entirely apart from the
power of the State .... Id, at 844-45.
On December 12, 2016 Shophar and Gorski was
granted joint-custody of the children, J.S. and B.S.,
though Shophar was denied any access to medical
records, school records, children’s place of residence,
dental records, educational records, or any knowledge
related to his children. Shophar continued to
persisted to save his children, as do millions of
parents in the United States, who are denied any
knowledge of their children, without any probable
cause, making the United States Supreme Court Rule
null and void, having no effects on State Courts.
After 2 V* years of litigating, the Petitioner would
finally have contact with his children. On his first
visit with his children to his home; March 29, 2017
his children were talking sexually explicit. Judge
Gyllenborg and Judge Sloan placed children in direct
danger with Krissy Gorski who was committing
criminal prostitution, crimes, and abusing illegal
drugs even to this day.
7

View Appendix 10:
https://sumosear.ch/images/phone/913-265-1764/5
https://eccie.net/showthread.php ?p=1061575590
View Part 1 of Appendix 9 (time stamp)
https://www.vimeo.com/279097759 Time 34:03-39:00
View Part 3 of Appendix 9 (time stamp)
https://www.vimeo.com/279064934 Time 00:28-01:28
https://www.vimeo.com/279064934 Time 20:05-21:28
On May 3, 2017 the father filed a protection order
in Shawnee County Kansas Court case: Case:
2017DM0846. He also contacted the Topeka Police
again who instructed him to hold the children
overnight on May 10, 2017, and bring them to the
Topeka Police for a review
View Part 3 of Appendix 9 (time stamp)
https://www.vimeo.com/279064934 Time 00:28-01:28
https://www.vimeo.com/279064934 Time 20:05-21:28
On May 10, 2017 the child J.S. expressed that
he was being forced to “taste private parts” the father
then started recording his child again, and played
back the prior audio records of the child’s own words,
he then requested his child to explain what he meant
by the first admissions.
View Part 3 of Appendix 9 (time stamp)
https://www.vimeo.com/279064934 Time 15:00-20:05
8

Shophar held the children over night as instructed
but was also instructed to contact the Olathe Police
Department. Shophar explained the situation to the
Olathe Police. The officer then gave Krissy Gorski
Shophar’s address in Topeka Kansas. The Johnson
County Judge Gyllenborg, then ordered the children
back to the mother and would not allow the Topeka
Police to review the children for sexual abuse.
View Part 3 of Appendix 9 (time stamp)
https://www.vimeo.com/279064934 Time 01:47-13:49
The Petitioner sought every possible action to
protect his children, utilizing State and Federal
agencies to investigate the matter. Shophar would
file documents and claims to protect his children, in
the Kansas Bureau of Investigations, Kansas
Department of Children and Families, KVC Health,
Topeka Police Department, Overland Park Police
Department, Olathe Police Department, the Federal
Court of Topeka Kansas, the Kansas City FBI, the
State of Michigan DHS Family Protection services,
State Police, the Michigan FBI, all to no avail. State
actors, and case workers in the State of Kansas,
then assisted Krissy Gorski to abscond the children
from the State of Kansas to hide them from the
Petitioner, in the State of Michigan.

9

The father filed a complaint against Kansas State
actors with a Kansas Legislator in the Topeka Capitol
Representative John Adams who forwarded
Shophar to Representative Brenda Dietrich of the
State of Kansas. Rep. Dietrich was provided a
detailed review of the situation involving his children
being sexually abused, due to State actors, directly
endangering the children.
The Petitioner contacted the FBI on June 1, 2017,
and was contacted by a Child Exploitation Agent of
the FBI on June 12, 2017. The Petitioner met, that
day, with an Agent for 2 hours at the FBI
Headquarters in Kansas City, Missouri. The FBI
agent requested the father to bring the child in for a
Forensics Review. On September 28, 2017, Shophar
informed Judge Gyllenborg that the FBI wanted to
review the children, but was denied again. The
Petitioner was denied any knowledge of his children,
or the whereabouts of his children, violating his
Fundamental rights. Shophar would then file a
Complaint in the U.S. Court of Michigan, as the
children were being hidden by Kansas state actors, in
the State of Michigan. The Petitioner then filed an
Emergency Habeas Corpus in the U.S. Eastern
District pursuant to 28 U.S. Code § 2241.
U.S. District Michigan: 2:17-cv-13322-MAG-EAS
U.S. District Michigan: 2:17-cv-13900-MAG-EAS
U.S. District Michigan: 2:18-cv-11567-MAG-EAS
10

The cases were dismissed based on the U.S. Court’s
Opinion of “Lack of Jurisdiction.” The father would
file in the U.S. Appeals Court, who Affirmed the
Michigan U.S. District’s Opinion. After 10 months of
being denied any knowledge of his children, on
March 28, 2018 Krissy Gorski was arrested for DUI
on METH and HEROIN. The father was litigating in
Federal Court due to children being hidden in
Michigan for 6 months. Judge Christina Gyllenborg
then transferred the case back to Judge Sloan.
On April 17, 2018 Judge Kathleen Sloan “illegally
seized” the children, violating Shophar’s Fourth
Amendment, making them WARDS OF THE STATE
OF KANSAS. Kansas DCF sent a letter to the father
in Michigan informing him that his children were
involved in a DCF investigation on April 22, 2018.
On Monday the father immediately contacted the
Court, and filed an appearance on April 23, 2018.
Judge Kathleen Sloan then removed the Petitioner
from the case involving his children, and documented
him absent. Assistant district attorney Erica Miller
also documented false records in the Petition to seize
the children, stating “the father left his children.”
State actors in the Kansas would document false
information that the father was not able to be located
and denied Shophar any access on May 14, 2018
though the father filed an Appearance on the case.
11

The Petitioner was denied access to the Court of
Kansas for hearings over 15 times in nearly 3 years.
1. Hearings in a Kansas Court
April 17, 2018 Shophar denied access to Court
May 14, 2018 Shophar denied access to Court
July 24, 2018 Shophar denied access to Court
September 11, 2018 Shophar allowed access to Court
October 18, 2018, Shophar allowed access to Court
November 19, 2018, Shophar allowed access to Court
January 23, 2019, Shophar denied access to Court
April 3, 2019 Shophar allowed access to Court
May 1, 2019 Shophar denied rights to children
May 24, 2019 Shophar filed an Habeas Corpus in
the Illinois U.S. Court: I:2019cv03512-CRN
May 28, 2019 Shophar denied access to Court
July 9, 2019 Shophar denied access to Court
September 19, 2019 Shophar denied access to Court
October 2, 2019 Shophar denied access to Court
January 8th, 2020 Shophar denied access to Court
February 10, 2020 Shophar denied access to Court
April 14, 2020 Shophar allowed access to Court
May 15, 2020 Shophar denied access to Court
July 12, 2020 Shophar denied access to Court
September 16 2020 Shophar denied access to Court
December 9, 2020 Shophar denied access to Court

12

Judge Kathleen Sloan allowed all Krissy Gorski’s
affiliates and friends, to appear in the Court but
denied the father any rights to the Court. Krissy
Gorski would contact the father’s immediate family
and continued to slander the Petitioner to his own
family. Shophar’s estranged brother of 29 years,
Paul Lafleur, from the State of Colorado, would
appear on the case on behalf of Krissy Gorski, and was
allowed by Judge Sloan to participate in Court
proceedings, and allowed to see the children, but
denied the Petitioner, the natural father, any rights
to the hearings. Sasuah Shophar, the Petitioner’s
wife and mother of his 3 other children, also traveled
from out of State to the hearing, and upon entry to the
Court in Kansas, was removed by Judge Sloan
without any probable cause, or merit to law.
Assistant district attorney Erica Miller then
conspired with LaFleur to secretly send the children
to the State of Colorado to hide the children from
Shophar. In July 2018 Shophar contacted the State
of Colorado DCF to inform the State of Colorado of
the pending actions, to send the children illegally to
the State of Colorado.
LaFleur had previously
demanded Shophar’s address, and stated to Shophar
and that if he did not give it, LaFleur would search
his computer, citing his ability to hack computers.
LaFleur also is on record stating if he received the
children he “would enforce every Order by the judge.”
13

The Petitioner, the father, wanted his children
reviewed for sexual abuse, and abuse, based on the
FBI and Law Enforcement’s recommendation to have
a Forensics Psychological Review on the children.
Kansas state actors refused to review the children,
and all parties, including Judge Gyllenborg, Judge
Sloan, Erica Miller, Richard Klein, KVC Health case
workers; Kimberly Smith, Saarah Admed, DCF case
workers Stacy Bray, and Paul Lafleur refused to have
the children reviewed for abuse. Due to the father
wanting his children reviewed, all parties conspired
to refuse Shophar any knowledge of his children, or
any time with his children. The Petitioner then hired
legal Counsel in the State of Colorado.
The Petitioner continued to communicate to State
Actors through email and continued to send files and
pleadings to the State of Kansas clerk, finally on
October 18, 2018, the father was allowed on the case
by Judge Sloan after 6 months of denying the father
the Fundamental right to the Court. The father
would file a Motion of I CPC in the Kansas Court
(Interstate Compact Placement of Children), to
the father’s residence. Judge Sloan forced a trial
against the Petitioner without an Attorney, though he
was not the offending parent, as to the cause of the
illegal State “seizure” of the children.

14

On April 3, 2019 Judge Sloan held a trial, and
allowed Kansas DCF, and the GAL Richard Klein to
place false allegations on Court record against the
Petitioner though the Petitioner had no contact with
his children or Krissy Gorski in over 2 Vz years. The
Petitioner was not allowed to cross examine any the
witnesses, though the witnesses made false claims.
Judge Sloan allowed Shophar to have closing
statements, and Granted Shophar an Order of ICPC
(Interstate Compact Placement of Children)
Regulation 7, (Expedite) to the father’s residence on
April 3, 2019. However, on the following hearing of
May 1, 2019, Judge Sloan omitted her order, without
any merit of law, and instructed the Assistant State
Attorney Erica Miller and GAL Richard Klein to
Motion the Kansas Court to return the children back
to Krissy Gorski, thus Shophar filed a Habeas Corpus
pursuant to 28 U.S. Code § 2241 in the State of
Illinois U.S. District Court. Case:
U.S. District Illinois Case: l:2019-cv-03512-CRN
The U.S. District of Illinois Court transferred the
case “FORTHWITH” to the U.S. District Kansas as a
Habeas Corpus.
U.S. District Kansas Case: 5:19-cv-4052-HLT-KGG

15

In May of 2019 the foster guardian requested the
Guardian ad Litem, Richard Klein to allow the
children to be taken to the State of Texas, against
the father’s wishes, though there was a current order
to send the children to the State of Illinois. Against
the father’s rights, Judge Sloan and GAL Richard
Klein ordered that the foster guardians, Nathan
Wilkie and Teena Wilkie could take the children to
the State of Texas even though there was an
investigation against the Wilkie family, based on both
children complaining of physical abuse.
On September 18, 2019, Judge Sloan was served
by the U.S. Marshals, the Complaint filed in the U.S.
District Kansas Court. On September 19, 2019.
Judge Sloan proceeded with another Exparte hearing
and reordered the children to be sent to the father
in the State of Illinois, under ICPC Regulation 7,
based on approval by the State of Illinois view
Appendix 4 and 5.
The father was approved by the State of Illinois
on October 17, 2019 to be placement for his children.
However, the State of Kansas would not return the
children to Shophar in the State of Illinois. In the
Federal case,
Shophar cited
violations of
Constitutional Rights under the Fourth Amendment
of wrongful “Seizure” of his property to State
Custody. The Kansas U.S. Court dismissed the case
16

stating “Lack of Jurisdiction.” After the U.S. District
Court of Kansas dismissed the case, Judge Sloan
denied the Shophar any more access to the State
Court, again. Shophar then filed an Appeal in the 10th
Circuit Court of Appeals, which Affirmed the U.S.
Kansas District.
The children complained of abuse by the foster
guardian, Nathan Wilkie. Kansas DCF and KVC
Health then placed J.S. in a Psychiatric Ward at
Pathway’s of Topeka Kansas. J.S. would remain in
a Psychiatric Ward for over a year, and complained
of sexual abuse at Pathway’s in Topeka, Kansas. The
father contacted Kansas Legislator; Representative
Brenda Dietrich of the Kansas Capitol, and
Representative John Adams again, concerning the
matter of violations in the State of Kansas, however
the Representatives did not return correspondence.
In March of 2020, State of Kansas assistant
attorney Erica Miller filed a fraudulent Petition to
take away all rights of father to his children though
the father is not the offending parent to the case.
Guardian ad Litem, Richard Klein also supported
the Petition and also Motioned the Court to place the
children back with Krissy Gorski in the State of
Missouri, directly endangering the children with
Gorski, being just convicted of 3 more felony crimes,
and currently prostituting in Kansas City, Missouri.
17

III. Relevant Proceedings Below
Johnson County Kansas Court - 2015CV5047
Kansas State CINC Court 15JC581 and 15JC582
Kansas Appellate Court Cases: 15JC581 and 15JC582
Kansas Supreme Court Petition for review 10/16
Shawnee County Court - Kansas Case: 2017DM0846
Oakland County Court — Michigan Case: 2017-856409-DC
Wayne County Court — Michigan Case: 2017-113070-DC
Kansas Supreme Court - Mandamus - 118143
Wayne County Court - Michigan Case: 18-157491-DS
Johnson County Court Kansas 18JC00229
Johnson County Court Kansas 18JC00230
Cook County Court — Illinois Case: 2019D079387
Kansas Supreme Court - Mandamus - 123314 (10/19/20)
Federal District Courts
U.S. District Kansas Case: 5:15-cv-4961-DDC-KGS
U.S. District Kansas Case: 5:16-cv-4043-DDC-KGS
U.S. District Michigan Case: 2:17-cv-13322-MAG-EAS
U.S. District Michigan Case: 2:17-cv-13900-MAG-EAS
U.S. District Michigan Case: 2:18-cv-11567-MAG-EAS
U.S. District Illinois Case: l:2019-cv-03512-CRN
U.S. District Kansas Case: 5:19-cv-04052-HLT
U.S. 10th Circuit Court of Appeals: 0:2017cv03143
U.S. 10th Circuit Court of Appeals: 0:2017cv03144
U.S. 10th Circuit Court of Appeals: 0:2019pr03281
U.S. 10th Circuit Court of Appeals: 0:2020cv03248
U.S. 6th Circuit Court of Appeals: 0:18-cv-02115
U.S. 6th Circuit Court of Appeals: 0:18-cv-02125
U.S. 6th Circuit Court of Appeals: 0:18-cv-01787
U.S. 6th Circuit Court of Appeals: 0:18-cv-02045
U.S. 10th Circuit Court of Appeal: 19-3281
United States Supreme Court Washington D.C.
U.S. Supreme Court case: 19-254 — not taken
U.S. Supreme Court case: 20-1068 - pending

18

IV. Additional Facts
The United States of America is the Funding
source to States under 1974 Child Welfare Act. All
States have an agency under Child Protective Service.
The Legislation of the State Body writes the Laws
concerning children and families in their State. There
is Funding by the U.S. Government based on family
claims submitted to the Federal Government, by the
States under the 1974 Child Welfare Act. However,
the U.S. Government does not audit or investigate
corruption by the States. 93% of all claims of abuse
are proven “unsubstantiated” however children in are
being “illegally seized” and more likely to be abused
under State Control than with the family of origin.
The Fourth Amendment guarantees the rights of
U.S. citizens to protect their home and belongings,
especially their children, but when a citizen files a
complaint of violations of the Fourth Amendment,
the U.S. Courts diverts the cases back to the State,
though the Federal Court, under Article IV, is the
Supreme Law, in accordance to the Fourth
Amendment right, and any Constitutional Law. And
to deny a citizen the right to a Court is now a violation
of the citizen’s First Amendment Right. Then if a
citizen’s rights are denied, in the Courts but another
citizen rights are allowed in the Court, then the Court
is now violating the Fourteenth Amendment and
the current Federal Statute of 42 U.S. Code § 1983.
19

The Petitioner made claims on the rights of the
Fourth Amendment of the Constitution, in which
his children, J.S. and B.S. were “illegally seized” by
a State, who had no complaint or claim against the
Petitioner. The Constitution protects a U.S. citizen
from such acts by a State.
V. Arguments
i.

Violation of Biblical Law

Romans 2:11
“nFor there is no respect of persons with God.”
Deuteronomy 1:17
17 Do not show partiality in judging; hear both
small and great alike. Do not be afraid of anyone,
for judgment belongs to God. Bring me any case
too hard for you, and I will hear it. ”
The orders by the U.S. District Court and Tenth
Circuit Court are written in respect of person. The
false narrative by the State Respondents is highly
magnified to mislead and mischaracterize the
Petitioner as the pro se litigate. On the contrary, the
orders highlight criticism to Petitioner’s lawsuits, to
discredit his efforts to protect the rights of his
children, from abuse of power, by the Respondents,
which have never been resolved in the State of Kansas
at any level of their legal system, being described as a
hard case, but dismissed by the U.S. Courts.
20

n.

Violations of Constitutional Law

The U.S. District Court and Tenth Circuit Appeal
Panel presents Shophar’s case as domestic relations
case, in order to dismiss the case on the grounds of
“Lack of subject matter.” The interpretation of
both panels perpetuate the mischaracterization of
Shophar, by the Respondents. The background of the
U.S. District Court and the Tenth Circuit Appeal, are
written one sided, geared to shed a negative light
against Shophar, inserting the false narrative that
Gorski took children to a safe home and Shophar was
investigated for domestic reasons, but fails to clearly
state the facts that “Gorski lied.” These claims can
be found in Shophar v Kansas. In addition, the
cases involving the origin of the claims are all closed,
with no adjudication against the Petitioner, after
evidence was provided by Shophar, showing Gorski
committed fraud on the Court, from the beginning,
but is viewed as a damsel in distress, which is a far
cry from the facts. Krissy Gorski committed crimes of
illegal drug distribution and consumption, which lead
to prostitution and convictions which endangered
children. But the State Courts violated Federal law
to protect children, to cover their errors.
View Appendix 12
https://www.vimeo.com/279097759 Time 9:05 - 9:28
https://www.vimeo.com/279097759 Time 9:57-10:09
https://www.vimeo.com/279097759 Timel2:30-13:18
https://www.vimeo.com/279097759 Timel3:49 -15:21
21

The U.S. District Court and U.S. Appellate Court
interpreted the matter as a custody case between a
“husband and wife” making egregious orders to
dismiss the case. The claims by the Petitioner is not
based on a custody of Krissy Gorski, but the fact that
the State of Kanas “seized” the children placing
them in a State as WARDS OF THE STATE, without
“Due Process” being given to Shophar, the Petitioner.
The current claims at hand in the State and
Federal Court are now based on actions of criminal
conduct that was committed by Krissy Gorski, which
have nothing to do with Jorel Shophar. Johnson
County, Kansas, has no legal grounds, or merit of law,
to illegally hold the Petitioner’s children as WARDS
OF THE STATE. The Federal Court’s interpretation
that the case is a “Custody Case” is egregious. Krissy
Gorski was arrested for DUI, driving under the
influence of illegally drugs, and endangering the
children. The State of Kansas executed a case against
Krissy Gorski, not Jorel Shophar. The State of
Kansas has no probable cause against Shophar, as
seen in the Court’s admission of the April 3, 2019
Order. “As to the Father the State rests. ” This is clear
record that the Father has no claim by the State of
Kansas or Krissy Gorski against him, therefore the
Seizure by the State of Kansas, of the Petitioners
children is illegal.
View Appendix 4 and Appendix 5
22

Also the Order by the Tenth Circuit Appellate
Court, only states.Mr. Shophar accused Ms. Gorski of
prostitution, drug use and extortion but fails to state
that his claims were corroborated by the conduct of
Gorski. DCF affirmed, “Krissy Gorski endangered
Petitioner’s children by “driving under the influence
of drugs with the children in the car.” Gorski’s return
to prostitution was affirmed; All courts in the State of
Kansas are aware of the online attachments that
corroborate her illegal conduct.
View Appendix 10:
https://sumosear.ch/images/phone/913-265-1764/5
https://eccie.net/showthread.php ?p=1061575590
Therefore, the State of Kansas has a case against
Krissy Gorski, and not Jorel Shophar, the Petitioner.
Gorski does not have a right to the children, based on
“Due Process” with proven evidence of criminal
activity, illegal drug abuse, convictions of additions
crimes in the State of Kansas and the State of
Missouri. The Petitioner has no claims against him,
being placed as a Defendant in a case that he is not
an offender, then having to prove himself worthy to
have his own children in his home, all a while being
denied to “right of Due Process” even though he did
not commit any wrong doing. This conduct by the
Kansas Court, is nefarious, egregious and illegal.
23

ill.

Supreme Court and Federal Acts
1974 Child Welfare Act (CAPTAV Victims of
Abuse Act 1990. Social Security Act, Fostering
Connection Act, ICPC Regulation 7. 28 U.S.
Code $ 2241

According to 14th Amendment Due process
clause, Shophar and his children’s have rights to a
fair “trial” if there was probable cause, but there
are no claims against him. The Respondents were
required to contact him to return his children
under his custodial care. Respondents were
required to diligently seek Petitioner Shophar as
the non-offending parent, in order to inform him
about DCF investigation, and hearing for the
removal of the children from the mother, in order
to give Petitioner Shophar the opportunity to
retrieve his children before a “seizure” by State.
In Stanley v. Illinois, 405 U.S. 645, 92 S. Ct.
1208 (1972) The United States Supreme Court
held that Under the Due Process Clause of the
14th Amendment, the unmarried father was
entitled to a hearing on his parental fitness
before his children could be placed with the
State. Further, the Court held such denial of
hearing to the father and granting to the mother
violated the Equal Protection Clause of the
Amendment.
24

U.S. Supreme Court:
"the usual understanding of 'family' implies biological
relationships.... Id. at 843 " Second, familial
relationships usually involve "emotional attachments
that derivefrom the intimacy ofdaily association.... Id.
at 844." Third, the "natural family" has "its origins
entirely apartfrom the power of the State .... Id, at 844
The U.S. Court denied due process concerning
Shophar’s claims. The Federal Statutes submitted to
>.?
the Court were never addressed by the U.S. Court.
Truax v. Corrigan (1921) as follows: “The due
process clause requires that every man shall
have the protection of his day in court, and
the benefit of the general law, a law which hears
before it condemns, which proceeds not
arbitrarily or capriciously, but upon inquiry,
and renders judgment only after trial, so that
every citizen shall hold his life, liberty, property
and immunities under the protection of the
general rules which govern society. It, of course,
tends to secure equality of law in the sense that
it makes a required minimum of protection for
every one’s right of life, liberty, and property,
which the Congress or the Legislature may not
withhold. ”

25

Dismissal base on lack of subject matter is
based on respect of person.
The Appeal Panel and the Federal Court both
claim the suit was a domestic relations case. As a
resident of Illinois, Petitioner Shophar initially filed
the Habeas Corpus in Illinois on May 24, 2019.
Illinois issued summons to Petitioner Shophar, to
serve Respondents. On 6/21/19 all SUMMONS were
executed on all Respondents and answers were due on
7/1/19. On 7/1/19 Illinois Federal Court ordered for
the case to be transferred “Forthwith” to Kansas as a
Habeas Corpus action. Illinois Federal Court
recognized the suit as a Habeas Corpus Complaint.
View Appendix 3
The order stated, “Petitioners...under 28 U.S.C. §
2241 seeking the release of Jorel Shophar’s children. ”
Illinois recognized the children as Wards of the
State of Kansas and that the Petitioners were suing
for their release. This was not a challenge of a custody
matter but a challenge of an “illegally detainment” by
a Kansas State agency. Illinois demonstrated that
their Federal Court was willing to use its discretion
to review Shophar’s case, under the Federal Corpus
procedure, to review the legality of the children’s
detainment as wards but because children were
located in Kansas, the case was transferred instead.
Kansas dismissed the case.
26

State Judges, as well as federal, have the
responsibility to respect and protect persons
from violations offederal constitutional rights.
312 F 2d 247; (1963) - Goss v. State ofIllinois
The right to procedural due process is
implicated where a constitutionally protected
liberty or property interest is concerned. Bd. of
Regents of St. Colleges v. Roth, 408 U.S. 564,
570, 92 S.Ct. 2701, 2705 (1972). The crux of
procedural due process is the right to notice and
an opportunity to be heard at a meaningful time
and in a meaningful manner. Fuentes v.
Shevin, 407 U.S. 67, 80, 92 S.Ct. 1983, 1994
(1972)
In the Writ of Habeas Corpus, Petitioner Shophar
clearly states the federal violations which the Kansas
Court chose not to address. The Analysis is written to
esteem the strategic defense of the Defendants to
mislead the case as a challenge to a custody order
from a domestic relation case citing the Opinion of
“Rooker vFeldman"which was not the interpretation
of the case. Shophar did not file an Habeas Corpus to
overturn a custody matter between a “mother and
father.” Shophar filed an Habeas Corpus against the
“State” who placed the children in “State Custody” as
WARDS OF THE STATE, which is against the will of
the children, and against their Constitutional Rights.
27

Child, J.S. was then placed in a Psychiatric home
after the he complained of physical abuse by a “state
appointed guardian”, Nathan Wilkie, who allegedly
threw the children across a room, and struck his face.
This conduct against the child is “State Abuse” based
on a “state seizure” - the State being the guardian,
which must fall under the Constitutional Law of the
Fourth Amendment, due to an illegal seizure of the
children. This case is not a matter between a “mother
and a father.” Shophar’s Federal claim violations
were mentioned in the orders, briefly in foot notes, to
reduce the importance of the federal violations, which
were never addressed by either the U.S. Kansas
Court, or the 10th Circuit Appeals Court.
Federal courts may exercise jurisdiction when a
parent seeks the return of their children based on
Constitutional rights violations.
State Judges, as well as federal, have the
responsibility to respect and protect persons
from violations of federal constitutional rights.
312 F 2d 247; (1963) -Goss v. State of Illinois

28

Jurisdiction and Habeas Corpus established Fourteenth Amendment Violations
Parents denied their rights to the custody of the
children, without due process and a child placed in
state custody without having probable cause against
a parent, is an illegal detainment of the children by
Kansas. Without giving notice to the Petitioner
Shophar as the father, the children were placed into
Kansas State Custody on April 17, 2018 in violation
to 14th Amendment right.
In California, "[hjabeas corpus may be 'used in
various types of child custody matters.In re
Paul W. 151 Cal. Ann. 4th 37. 53 (Cal. App. 6
Dist. 2007) (citation omitted). "The 'writ will lie
when a person entitled to custody of a minor
child is denied possession thereof.'" Id (citing
In re Barr. 39 Cal. 2d 25 27 (1952)).
Jurisdiction establish by Complete Diversity
Pursuant to 28 U.S. Code§ 1332 Diversity of
citizenship: Complete diversity exist because none of
the Plaintiffs are from the same state of any of the
Defendants. Both Courts failed to acknowledge the
Petitioner’s claim of Diversity. The Courts’ rulings
are egregious in interpretation of the facts of the
matter. The children are WARDS OF A STATE.

29

Federal law under title IV-E of the Social
Security Act requires preference to a relative
adult over non relative placement.
Title IV-E further requires all states to exercise
due diligence to identify and provide notice to all
parents of a sibling of the child, where such parent
has legal custody of the sibling.
Petitioner Sasuah traveled from Illinois to the
State of Kansas in September 11, 2018 to attend a
CINC hearing for an opportunity for placement and
to establish visitation between the siblings. In
violation to Federal law and IV-E of the Social
Security Act, Respondent Sloan denied Petitioner
Shophar access to the court. In addition, Respondent
KVC and DCF refused to establish contact visits
between siblings without merit. The children’s GAL
Respondent Klein, did not make any efforts to make
communication with the Shophar’s for preserving the
sibling connection as required by child welfare laws.
It has been nearly 3 years that the children have
been in state custody and Petitioner Sasuah has never
been contacted by anyone from the State of Kansas as
required by law.

30

Violation to The Fostering Connections to
Success and Increasing Adoptions Act
Pursuant to The Fostering Connection Act,
Kansas Respondents were required to make
reasonable efforts to provide frequent visitation or
other ongoing interaction between siblings.
Respondents violated the law and have denied and
deprived the children any contact or visitation
between the siblings in over 3 V2 years.
Sibling Connection Constitutional Rights
Siblings' rights under the
Fourteenth
Amendment Due Process Clause and the First
Amendment right, protects the right to maintain
and preserve the relationship with their siblings.
The Supreme Court has held that “certain rights
associated with the family can be protected under the
Due Process Clause. ”
1) “Children who have positive relationships
with their siblings are less likely to exhibit
internalizing
behaviors
(i.e.,
behavior
problems, such as anxiety or depression, that
are directed inward or “kept inside”) after
experiencing a traumatic event”...(Gass,
Jenkins, & Dunn, 2007; Wojciak, McWey, &
Helfrich, 2013).
31

2)“Being placed with siblings or maintaining
sibling connections while in care serves as a
protective factor for children’s mental
health”...(Jones, 2016; McBeath et al., 2014).
3) “Being placed with all their siblings may
improve children’s school performance”(Hegar
& Rosethal, 2011)
Violations of Due Process
The Petitioner has never been given a day in
Court in State or Federal, after being falsely accused
by a 15 count criminal women, who is currently
prostituting and abusing drugs, however the State
courts perpetual Gorski’s fraud in the State Courts,
and Federal Courts likewise, denying “Due Process”
to the Petitioner and also perpetuating a complete
contrived, fairytales that has affected Opinions of the
U.S. Courts. Judge Holly Teeter states in the Opinion
Background;
“This action is essentially a challenge to a state
court child custody order... ”
The initial description of the case, by Judge Teeter,
is immediately egregious, in error, and one sided, to
promote an idea of a “damsel in distress. ” The Court
revisits false claims from the State of Kansas which
caused the suit of Shophar v Kansas, which were
never address, however proven false in State Court
32

and Federal Court, after Shophar presented evidence
that Krissy Gorski lied 5 years ago. Judge Teeter
violates Res ju dicata to revisit claims that are not a
part of the current matter. The current matter is a
State illegal seizure of children, based on [Krissy
Gorski] driving under the influence of drugs, acquired
through her prostitution - this is the matter.

iv.

Conspiracy to Cover-up child sex abuse

From the beginning September 28 and 29 2015,
state judges, Christina Gyllenborg and Kathleen
Sloan violated State and Federal Laws to protect
children, denying Shophar the right of Due Process in
their Courts, to show Gorski was involved in drugs
and prostitution and an imminent threat to the life of
children. The Petitioner filed in the U.S. Courts for
civil deprivations, after continual discrimination
against Shophar and his two Attorneys; and after
false reporting by agencies KVC Health, and DCF, in
Johnson County Courts. When Shophar filed claims
in the Kansas U.S. Court; Johnson County State
Actors retaliated against him with harsh orders,
pursuant to 18 U.S. Code § Section 242:
Section 242 of Title 18 makes it a crime for a
person acting under color of any law to
willfully deprive a person of a right or privilege
protected by the Constitution or laws of the
United States
33

Shophar’s rights to the matter in the Court was
denied, and his free speech in the Court was denied
pursuant 42 U.S. Code § 1983, denying him,
hearings, reports, access to the Courts, access to
sessions involving his children, while granting Krissy
Gorski the rights to all hearings, sessions, meeting.
State actors then retaliated, defaming Shophar’s
character, pursuant to 28 U.S. Code § 4101,
falsifying reports to mischaracterize the Petitioner.
Their actions were proven successful when the U.S.
Courts labeled Shophar as one being “investigated”,
directly contrary to the facts from the beginning, in
which Shophar contacted the State to “investigate”
Gorski for abuse of drugs, erratic behavior and abuse
of children. These matters were never settled in the
State Court, neither was there ever an adjudication
based on facts. The cases were dismissed.
After the judges advocated for Krissy Gorski, and
not the law; to protect children, the children were
placed in a dangerous situation, involving criminals
and illegal drugs, which resulted in the children being
sexually abused pursuant to 18 U.S.C. Code § 1591.
When admissions from the children came to
manifestation, Judge Gyllenborg and Judge Sloan
covered up the abuse of the children and placed the
children back in Krissy Gorski’s home where there
was sex trafficking, illegal drugs of; Meth, Heroin,
Crack, Cocaine, and Opioids. These State Actors then
34

concealed the new severe dangerous events, pursuant
to 18 U.S.C. Code § 1519,
View Part 3 of Appendix 9 (time stamp)
https://www.vimeo.com/279064934 Time 15:00-20:05
The judges attempted to avoid liability of
Shophar’s Federal Claims, and to mischaracterize the
Petitioner to cause the U.S. District Courts to deny
Shophar justice. The acts to place children in direct
danger, caused the children to be abused and sexually
abused, based on the nefarious rulings by County
judges, who abused their authority, in a conspiracy to
cover up their errors, causing even greater damage.
Pursuant to 18 U.S. Code § Section 242
Section 242 of Title 18 makes it a crime for a person
acting under color of any law to willfully deprive a
person of a right or privilege protected by the
Constitution or laws of the United States

The State of Kansas, State Actors had a duly
requirement to report sexual abuse and physical of
minors pursuant 18 U.S. Code § 2258. Failure to report
child abuse, is a crime. The Petitioner made these
claims in the U.S. Courts, the judges were then
Granted “Immunity of the Eleventh Amendment”. The
Conduct of the judges worsened, as the U.S. Courts
opinion was that the judges may “Enjoy” absolute
Immunity, which is at the expense of two children,
35

who were abused under State Seizure and abused
based on nefarious Orders by judges, and agencies of
the state, who placed children in direct danger. The
Eleventh Amendment Immunity must not be a bridge
for State Actors to commit crime, if so, we are living
in a land of tyranny and grave injustice.
As Shophar persisted to protect his children, they
were sent by State Actors and Krissy Gorski, through;
Kansas, Missouri, Illinois, Indiana, Michigan, then
sent to Texas, with a final conspiracy to send the
children secretly to Paul LaFleur in the State of
Colorado, because he friended the State attorney and
guaranteed that he would not allow Shophar to see
or talk to his children, if the children were awarded to
him in Colorado. State Attorney Erica Miller, and
Guardian ad Litem Richard Klein, conspired to place
the children in Colorado for months, allowing LaFleur
to visit with children, though LaFleur had only seen
the children one time in their life, while denying the
natural father any access to the children, or
knowledge of their whereabouts.
The Fourteenth Amendment "forbids the
government to infringe ... 'fundamental' liberty
interests of all, no matter what process is
provided, unless the infringement is narrowly
tailored to serve a compelling state interest." Washinston v. Glucksburg. 521 U.S. 702
(1997)
36

Agencies, Krissy Gorski, the foster guardians
Teena Wilkie, allowed LaFleur to visit with the
children, commuting from the State of Colorado to
Kansas, monthly. LaFleur even sold his home
secretly, buying a larger home to accommodate more
children in his home. Judge Sloan never required
LaFleur to file an appearance in the Court matter,
and was allowed to speak in the Court, having no
record or identity in the Court of law. Shophar was
denied all access to the Kansas Court. When Shophar
became aware of the plan to place the children in
Colorado, and hired an Attorney, State actors
retaliated against him with harassment, pursuant 18
U.S. Code § 2261A (2)(b), sending threats to take
away his rights to his children altogether.
All Respondents hands are “unclean” having
malicious motives to deny the father his God given
rights. The children are yet in the State of Kansas,
based on illegal conduct by a criminal mother. The
father has sought to protect his children from the
beginning and has been rewarded evil for his good.
The illegal seizure of the children by the State of
Kansas was a retaliatory action against the Petitioner
because the he wanted his children to undergo a Law
Enforcement “Review for sexual abuse.” All
Respondents, are complicit with malicious conduct,
gross misconduct, nefarious orders, conspiracy to
deny Shophar any knowledge of his children, all in
efforts to cover up sexual crimes against children.
37

•

Reasons for Granting Petition
NATIONAL CRISIS OF STATES’ CHILD ABUSE
Psalm 127:3
Lo, children are an heritage of the LORD: and the
fruit of the womb is His reward.
Pursuant to the Law of God, parents have the
right to their children and are required to care for
their children. It is of national importance to all
families and children in the United States that the
United States Supreme Court grant this Writ of Cert
in order to review the matter and make a declaration
that Parents are the corner stone to raising their
children, in order to close the door of corruption by
State Officials, who are stripping children from their
parents illegally in the absence of due process. Child
Protective Services is the driving force that the States
use to put a bounty on the heads of children in
order to receive the Federal funding and incentives.
The Adoption and the Safe Families Act has
been infiltrated by corruption. The cash bonus for
adoption incentives, former President Clinton set in
motion has become an incentive to states to put a
bounty on the head of children in American, with the
sole purpose not to protect children but remove
children from parents and place them into Children
Protective services for profit. The more children that
38

are placed in Child Protective Services the greater the
Funding the States will receive.
Child Protective Services has decrease in
protecting children and increased in destroying
children’s lives. This Petition of Writ of Cert is one of
many million cases, and serves as a testament that
clearly depicts the destructive nature of the
corruption of the Child Welfare System in the United
States of America. There are many accounts of fraud
by caseworkers, investigators, lawyers, GALS, judges,
therapists who work in conjunction to keep children
in State Custody even when there is no probable case.
Research shows separating a child from her
parent(s) has detrimental, long-term emotional and
psychological consequences that may be worse than
leaving the child at home. Shanta Trivedi, The
Harm of Child Removal, 43 New YORK
University Review of Law & Social
Change 523 (2019).
It is estimate that 60% of child sex trafficking
victims have a history in the child welfare system.
A John Hopkins University study of a group of foster
children in Maryland found that children in foster
care are four times more likely to be sexually
abused than “their peers not in this setting”,
and children in group homes are 28 times more likely
to be abused. In 2019 over 672,000 children spent
time in the U.S. Foster Care. Researchers have found
39

that 43% of foster care participants report diagnoses
of depression and 29% percent report suffering from
PTSD. Bruskas & Tessin, supra note 20, at 134.
Other studies have found that the rate of PTSD in
foster children is almost twice as high as the rate in
United States war veterans. 214. Id. at 132 (citing
PECORA, KESSLER, WILLIAMS, OBRIEN,
DOWNS, ENGLISH, WHITE, HIRIPI, WHITE,
WIGGINS, & HOLMES, supra note 152, at 1).
Children in foster care are unnecessary
Institutionalization and are prescribed powerful
psychotropic medications at a rate much higher
than kids overall. Family connections are severed
while in the system. Siblings are alienated being
deprived unreasonable contact or visitations.
View url:
https://www.childrensrights.org/our-kids/who-werefighting-for/
Researchers of a study of investigations of abuse in
New Jersey foster homes, concluded that “no
assurances can he given” that any foster child in the
state is safe. Children in foster care: (“Those placed
in foster care are far more likely than other children
to commit crimes, drop out of school, join welfare,
experience substance abuse problems, or enter the
homeless population.”).

40

See, e.g., Joseph J. Doyle Jr., Child Protection
and Child Outcomes: Measuring the Effects of
Foster Care, 97 AM. ECON. REV. 1583, 1583
(2007)
In Nancy Shaefer’s November 16, 2007, report
title, “The Corrupt business of Child Protective
Services”, there are conclusions about Child
Protective Services Systems corrupt conducts that can
no longer be ignored. It is the responsibility and duty
of the United States of America’s Government to hold
States and Child Protective Services accountable for
their corrupt conduct that has been and is offending
the least of God’s children.
Proverbs 31:8-9
“Open your mouth for the mute, for the rights of all
who are destitute. Open your mouth, judge
righteously, defend the rights of the poor and needy.”
Luke 17:2
“It were better for him that a millstone were hanged
about his neck, and he cast into the sea, than that he
should offend one of these little ones.”
Final remarks by Georgia, Senator Nancy Shaefer
in her report, “Children deserve better. Families
deserve better. It’s time to pull back the curtain and
set our children and families free. ”
41

Matthew 19:14
But Jesus said, Suffer little children, and forbid them
not, to come unto Me: for of such is the kingdom of
heaven.
The United States Supreme should execute and
act for the citizens of America, to safeguard citizens
from nefarious orders by County court judges, and
States who deny Constitutional rights, and cause
death, medical emergencies, physical abuse, and
sexual abuse to children. The authorities of the
government abroad, are denying parents their
fundamental rights to their children. The Law of the
Land, is to foresee injustices, maintain ‘liberty and
freedom” which propels citizens to higher heights in
their aspirations in a free Nation.
If the United State Supreme Court does not act
upon such dereliction of duty of judges, in regards to
families, and their wellbeing, the Land will become
desolate, and destitute of righteousness, and bring
forth another generation of children that are broken.

42

Statement of Children
My brothers were taken from me at the age of 12 on
August 12th, 2015. At the young age of twelve, I
thought that the United States governments and
courts all provided people justice and always “did the
right thing.” The pledge states “liberty and justice for
all.” In the following 5 years, I have missed my
brothers. I have not been able to spend time with
them on any holiday or birthday. My heart has been
bleeding silently for 5 years. In these 5 years, which
is more than a fourth of my life, I have seen the true
despicable reality of the “justice” system. From ages
12-18, I was constantly rudely awakened to the
horrendous actions of "powerful" people who go
unchecked or are checked by acquaintances. From the
lower district courts to the federal courts, they all
strive for the best interest of their beliefs, money, and
name. Nothing is based on the truth or events. I miss
my brothers and the bond we had.

I miss my brothers daily. I miss the years of making
them laugh and playing with them. I miss their joy. I
love them and pray to God that they will be brought
home here, where they belong, a family who will love
and care for them for the rest of their lives. I miss you,
JS and BS, come home, please.

I haven’t seen my brothers in a while. I really want
to play with them and have fun.
&

43

Conclusion
The State of Kansas, and the above Respondents
have conducted in a conspiracy, Federal Statute
violations, violating Constitutional Laws of the First,
Fourth, and Fourteenth Amendments, committing
fraud of the Court, false representation of Kansas
Law, and Federal Laws to protect children, by coverup of sexual abuse to minors, child endangerment.
The State of Kansas practiced discrimination,
showing partiality, and bias conducting; deprivations
of Due Process, criminal false communication, aiding
and abetting a criminal, and many more acts of
wanton, and willing misconduct and gross
misrepresentation of the Law, which must have a Day
in Court. It is imperative that the Higher Court act,
and decree New Laws to protect the innocence of
children, and the rights of fathers and mothers, to
protect and raise them in freedom and liberty, in a
Nation under God, in whom we trust.
1 Samuel 24:12
The LORD judge between me and thee, and the
LORD avenge me of thee: but mine hand shall not be
upon thee.

44

Respectfully submitted,

Jorel Shophar, Sasuah Shophar
R.S., Z.S., E.S. ProSe
1900 E. Golf Rd.
Schaumburg, IL 60173
Phone: (773) 563-9851
Shophar@UnitedStatesChurch.us

45

